                     CLOSEOUT FOR M93050030
     This case was br




listed on the subject's curriculum vitae were                  The
reviewer pointed out that the citation information in the vita was
         e and that two of the journals listed were not in
          the most complete international listing of journals that
exlsts.
                         the subject's journal articles indexed in
                        and other published indexes. One of these
                        ot included in
subject to ask him for reprints of his
to verify that he had a forthcoming book as listed in his vita. He




and the subject lists this article on his vita after his four
published articles and before two forthcoming articles, suggesting
that he might have intended to group it with forthcoming
publications. Although he did not list this article as forthcoming,
and arguably should have done so, OIG concluded that this was a
trivial inaccuracy and that the subject has not falsified his list
of publications.
     This case is closed and no further action will be taken.




Staff Scientist, Oversight




                             page 1 of 2
Concurrence:
          -v#::;




Deputy Assistant Inspector General,
Oversight




Assistant Inspector General for Oversight




Assistant Counsel to the Inspector General


cc: Assistant Inspector General for Oversight
    Inspector General.




                           page 2 of 2
